                        October 10, 2012



PRESIDENTIAL POLICY DIRECTIVE/PPD-19



SUBJECT:      Protecting Whistleblowers with Access to
               Classified Information


This Presidential Policy Directive ensures that employees
(1) serving in the Intelligence Community or (2) who are
eligible for access to classified information can effectively
report waste, fraud, and abuse while protecting classified
national security information. It prohibits retaliation against
employees for reporting waste, fraud, and abuse.

To ensure the timely and effective implementation of the goals
of this directive, I hereby direct that the following actions be
taken:

A.   Prohibition on Retaliation in the Intelligence Community

Any officer or employee of a Covered Agency who has authority to
take, direct others to take, recommend, or approve any Personnel
Action, shall not, with respect to such authority, take or fail
to take, or threaten to take or fail to take, a Personnel Action
with respect to any employee serving in an Intelligence
Community Element as a reprisal for a Protected Disclosure.

Within 270 days of the date of this directive, the head of each
Intelligence Community Element shall certify to the Director of
National Intelligence (DNI) that the personnel policies that
apply to that element provide a process for employees to seek
review of Personnel Actions they allege to be in violation of
this directive and that the review process is consistent with
the requirements of this directive. Such review process shall
apply to Personnel Actions that arise after the date on which
the department or agency (“agency”) head certifies the agency
review process. If the head of any Intelligence Community
Element fails to make this certification or if the DNI disagrees
with the certification, the DNI shall notify the President.

The review process required by the above paragraph shall be
consistent, to the fullest extent possible, with the policies
and procedures used to adjudicate alleged violations of
section 2302(b)(8) of title 5, United States Code. The review
process shall provide for the protection of classified national
security information and intelligence sources and methods. As
part of the review process, the agency Inspector General shall
conduct a review to determine whether a Personnel Action
violated this directive and may recommend that the agency take
specific corrective action to return the employee, as nearly as
practicable and reasonable, to the position such employee would
have held had the reprisal not occurred. An agency head shall
carefully consider the findings of and actions recommended by
the agency Inspector General. To the extent authorized by law
(including the Back Pay Act), corrective action may include, but
is not limited to, reinstatement, reassignment, the award of
reasonable attorney’s fees, other reasonable costs, back pay and
related benefits, travel expenses, and compensatory damages.

B.   Prohibition on Retaliation by Affecting Eligibility for
     Access to Classified Information

Any officer or employee of an executive branch agency who has
authority to take, direct others to take, recommend, or approve
any action affecting an employee’s Eligibility for Access to
Classified Information shall not, with respect to such
authority, take or fail to take, or threaten to take or fail to
take, any action affecting an employee’s Eligibility for Access
to Classified Information as a reprisal for a Protected
Disclosure.

Within 270 days of the date of this directive, the head of each
agency in possession of classified information shall certify to
the DNI, acting in his or her capacity as the head of the entity
selected by the President under subsection 435b(b) of title 50,
United States Code, and as the Security Executive Agent
designated in Executive Order 13467 of June 30, 2008, that the
agency has a review process that permits employees to appeal
actions affecting Eligibility for Access to Classified
Information they allege to be in violation of this directive and
that the review process is consistent with the requirements of
this directive. Such review process shall apply to actions that
arise after the date on which the agency head certifies the
agency review process. If the head of any agency fails to make
this certification or if the DNI disagrees with the
certification, the DNI shall notify the President.

The review process required by the above paragraph shall, to the
fullest extent possible, be consistent with and integrated into
the policies and procedures used to review security clearance
determinations under Section 5.2 of Executive Order 12968 of
August 2, 1995, as amended. The review process shall provide
for the protection of classified national security information
and intelligence sources and methods. As part of the review
process, the agency Inspector General shall conduct a review to
determine whether an action affecting Eligibility for Access to
Classified Information violated this directive and may recommend
that the agency reconsider the employee’s Eligibility for Access
to Classified Information consistent with the national security
and with Executive Order 12968 and recommend that the agency
take other corrective action to return the employee, as nearly
as practicable and reasonable, to the position such employee
would have held had the reprisal not occurred. An agency head
shall carefully consider the findings of and actions recommended
by the agency Inspector General. To the extent authorized by
law (including the Back Pay Act), corrective action may include,
but is not limited to, reinstatement, reassignment, reasonable
attorney’s fees, other reasonable costs, back pay and related
benefits, travel expenses, and compensatory damages.

C.   Inspector General External Review Panel

An employee alleging a reprisal who has exhausted the applicable
review process required by Section A or B of this directive may
request an external review by a three-member Inspector General
panel (External Review Panel) chaired by the Inspector General
of the Intelligence Community (on behalf of the DNI, acting in
his capacity as the head of the entity selected by the President
under subsection 435b(b) of title 50, United States Code, and as
the Security Executive Agent designated in Executive Order 13467
of June 30, 2008). If such a request is made, the Inspector
General of the Intelligence Community shall decide, in his or
her discretion, whether to convene the External Review Panel,
and, if so, shall designate two other panel members from the
Inspectors General of the following agencies: Departments of
State, the Treasury, Defense, Justice, Energy, and Homeland
Security and Central Intelligence Agency. The Inspector General
from the agency that completed the initial review shall not be a
member of the External Review Panel. The External Review Panel
shall complete a review of the claim, which may consist of a
file review, as appropriate, within 180 days.

If the External Review Panel determines that the individual was
the subject of a Personnel Action prohibited by Section A while
an employee of a Covered Agency or an action affecting his or
her Eligibility for Access to Classified Information prohibited
by Section B, the panel may recommend that the agency head take
corrective action to return the employee, as nearly as
practicable and reasonable, to the position such employee would
have held had the reprisal not occurred and that the agency head
reconsider the employee’s Eligibility for Access to Classified
Information consistent with the national security and with
Executive Order 12968.

An agency head shall carefully consider the recommendation of
the External Review Panel pursuant to the above paragraph and
within 90 days, inform the panel and the DNI of what action he
or she has taken. If the head of any agency fails to so inform
the DNI, the DNI shall notify the President.

On an annual basis, the Inspector General of the Intelligence
Community shall report the determinations and recommendations
and department and agency head responses to the DNI and, as
appropriate, to the relevant congressional committees.

With respect to matters covered by this directive, all agencies
shall cooperate with their respective agency Inspectors General,
the Inspector General of the Intelligence Community, and
External Review Panels and provide such information and
assistance to their respective agency Inspectors General, the
Inspector General of the Intelligence Community, and members of
External Review Panels as such Inspectors General may request,
to the extent permitted by law.

D.    Policies and Procedures

Within 365 days of the date of this directive, the DNI shall, in
consultation with the Secretary of Defense, the Attorney
General, and the heads of agencies containing Intelligence
Community Elements, issue policies and procedures for ensuring
that all employees serving in Intelligence Community Elements
are aware of the protections and review processes available to
individuals who make Protected Disclosures. These policies and
procedures shall to the extent practicable be publically
available, and shall provide:

(1)   guidance for individual officers or employees regarding
      what disclosures are protected;

(2)   guidance for potential recipients on the appropriate
      handling of Protected Disclosures, including for referral
      by the DNI or Inspector General of the Intelligence
      Community to appropriate agency officials of any Protected
      Disclosures unrelated to national intelligence; and

(3)   information regarding the review processes required by
      Sections A, B, and C of this directive.

E.   Review of Regulations Implementing Section 2303 of Title 5,
United States Code

Within 180 days of the date of this directive, the Attorney
General, in consultation with the Special Counsel and Federal
Bureau of Investigation employees, shall deliver a report to the
President that assesses the efficacy of the provisions contained
in part 27 of title 28, Code of Federal Regulations in deterring
the personnel practices prohibited in section 2303 of title 5,
United States Code, and ensuring appropriate enforcement of that
section, and describes any proposed revisions to the provisions
contained in Part 27 of title 28 that would increase their
effectiveness in fulfilling the purposes of section 2303 of
title 5, United States Code.

F.    Definitions

For purposes of this directive:

(1)   The term “Covered Agency” means an executive department or
      independent establishment, as defined under sections 101
      and 104 of title 5, United States Code, that contains or
      constitutes an Intelligence Community Element, as defined
      below.

(2)   The term “Eligibility for Access to Classified Information”
      means the result of the determination whether an employee
      (a) is eligible for access to classified information in
      accordance with Executive Order 12968 (relating to access
      to classified information), or any successor thereto, and
      Executive Order 10865 of February 20, 1960, as amended
      (relating to safeguarding classified information with
      industry), or any successor thereto; and (b) possesses a
      need to know under such orders.

(3)   The term “Intelligence Community Element” means any
      executive agency or unit thereof determined by the
      President under section 2302(a)(2)(C)(ii) of title 5,
      United States Code, to have as its principal function the
      conduct of foreign intelligence or counterintelligence
      activities, including but not limited to the Office of the
      DNI, the Central Intelligence Agency, the National Security
      Agency, the Defense Intelligence Agency, the National
      Geospatial-Intelligence Agency, and the National
      Reconnaissance Office. For purposes of this directive, the
      term “Intelligence Community Element” does not include the
      Federal Bureau of Investigation.

(4)   The term “Personnel Action” means an appointment,
      promotion, detail, transfer, reassignment, demotion,
      suspension, termination, reinstatement, restoration,
      reemployment, or performance evaluation; a decision
      concerning pay, benefits, or awards; a decision concerning
      education or training if the education or training may
      reasonably be expected to lead to an appointment,
      reassignment, promotion, or performance evaluation; a
      decision to order psychiatric testing or examination; and
      any other significant change in duties, responsibilities,
      or working conditions.

The term “Personnel Action” does not include the termination of
an employee pursuant to section 1609 of title 10, United States
Code. The term “Personnel Action” does not include the
termination of an employee pursuant to section 102A(m) of the
National Security Act of 1947, section 104A(e) of the National
Security Act of 1947, or section 7532 of title 5, United States
Code, so long as the official authorized by those provisions to
terminate the employee (and not his or her delegee)
(i) determines that the alternative legal procedures to
terminate the employee cannot be invoked in a manner consistent
with the national security and (ii) promptly notifies the
Inspector General of the employing agency. The term “Personnel
Action” does not include actions taken with respect to a
position that the agency head has designated, prior to the
action as being of a confidential, policy determining,
policymaking, or policy advocating character. The term
“Personnel Action” does not include actions taken with respect
to a member of the Armed Forces, as used in section 1034 of
Title 10, United States Code. The term “Personnel Action” does
not include any actions taken prior to the issuance of this
directive.

(5)   The term “Protected Disclosure” means:

      (a)   a disclosure of information by the employee to a
            supervisor in the employee’s direct chain of command
            up to and including the head of the employing agency,
            to the Inspector General of the employing agency or
           Intelligence Community Element, to the Director of
           National Intelligence, to the Inspector General of the
           Intelligence Community, or to an employee designated
           by any of the above officials for the purpose of
           receiving such disclosures, that the employee
           reasonably believes evidences (i) a violation of any
           law, rule, or regulation; or (ii) gross mismanagement,
           a gross waste of funds, an abuse of authority, or a
           substantial and specific danger to public health or
           safety;

     (b)   any communication described by and that complies with
           subsection (a)(1), (d), or (h) of section 8H of the
           Inspector General Act of 1978 (5 U.S.C. App.);
           subsection (d)(5)(A) of section 17 of the Central
           Intelligence Agency Act of 1949 (50 U.S.C. 403q); or
           subsection (k)(5)(A), (D), or (G), of section 103H of
           the National Security Act of 1947 (50 U.S.C. 403-3h);

     (c)   the exercise of any appeal, complaint, or grievance
           with regard to the violation of Section A or B of this
           directive;

     (d)   lawfully participating in an investigation or
           proceeding regarding a violation of Section A or B of
           this directive; or

     (e)   cooperating with or disclosing information to an
           Inspector General, in accordance with applicable
           provisions of law in connection with an audit,
           inspection, or investigation conducted by the
           Inspector General,

if the actions described under subparagraphs (c) through (e) do
not result in the employee disclosing classified information or
other information contrary to law.

G.   General Provisions

This directive shall be implemented in a manner consistent with
applicable law, including all statutory authorities of the heads
of agencies and Inspectors General, and does not restrict
available rights, procedures, and remedies under section 2302(b)
of Title 5, United States Code.

This directive is not intended to, and does not, create any
right or benefit, substantive or procedural, enforceable at law
or in equity by any party against the United States, its
departments, agencies, or entities, its officers, employees, or
agents, or any other person.



BARACK OBAMA
